<html>
<title> - THE WAR ON TERRORISM: HOW PREPARED IS THE NATION'S CAPITAL?-- PART II</title>
<body><pre>[Senate Hearing 109-567]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-567

 THE WAR ON TERRORISM: HOW PREPARED IS THE NATION'S CAPITAL?-- PART II

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                 THE FEDERAL WORKFORCE AND THE DISTRICT
                        OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 29, 2006

                               __________



       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
27-755 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
   Joyce A. Rechtschaffen, Minority Staff Director and Chief Counsel
                      Trina D. Tyrer, Chief Clerk


   OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                  GEORGE V. VOINOVICH, Ohio, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
NORM COLEMAN, Minnesota              CARL LEVIN, Michigan
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

                   Andrew Richardson, Staff Director
              Richard J. Kessler, Minority Staff Director
            Nanci E. Langley, Minority Deputy Staff Director
                      Emily Marthaler, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Akaka................................................     3
    Senator Warner...............................................    17

                               WITNESSES
                       Wednesday, March 29, 2006

Thomas Lockwood, Director, Office of National Capital Region 
  Coordination, U.S. Department of Homeland Security.............     5
Dennis R. Schrader, Director, Governor's Office of Homeland 
  Security, State of Maryland....................................     7
Edward D. Reiskin, Deputy Mayor, Public Safety and Justice, 
  District of Columbia...........................................     8
Robert P. Crouch, Jr., Assistant to the Governor for Commonwealth 
  Preparedness, Office of Commonwealth Preparedness, Commonwealth 
  of Virginia....................................................    10
William O. Jenkins, Jr., Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................    12

                     Alphabetical List of Witnesses

Crouch, Robert P., Jr.:
    Testimony....................................................    10
    Joint prepared statement.....................................    45
Jenkins, William O., Jr.:
    Testimony....................................................    12
    Prepared statement...........................................    62
Lockwood, Thomas:
    Testimony....................................................     5
    Prepared statement with attachments..........................    33
Reiskin, Edward D.:
    Testimony....................................................     9
    Joint prepared statement.....................................    45
Schrader, Dennis R.:
    Testimony....................................................     7
    Joint prepared statement.....................................    45

                                APPENDIX

``FY 2003 Urban Area Homeland Security Strategy, National Capital 
  Region,'' October 22, 2003.....................................    80
Responses to Questions submitted for the Record from Mr. Lockwood    93
Joint Responses to Questions for the Record from Mr. Reiskin, Mr. 
  Crouch, and Mr. Schrader.......................................   102

 
 THE WAR ON TERRORISM: HOW PREPARED IS THE NATION'S CAPITAL?-- PART II

                              ----------                              


                       WEDNESDAY, MARCH 29, 2006

                                   U.S. Senate,    
          Oversight of Government Management, the Federal  
      Workforce, and the District of Columbia Subcommittee,
                            of the Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich, Warner, and Akaka.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. The hearing will please come to order.
    Gentleman, you don't have to stand up for us. I thought 
maybe you were standing up to get sworn in. Since you are 
standing I will swear you in. [Laughter.]
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Lockwood. I do.
    Mr. Reiskin. I do.
    Mr. Crouch. I do.
    Mr. Schrader. I do.
    Mr. Jenkins. I do.
    Senator Voinovich. One thing that many people are not aware 
of regarding this Subcommittee, is that we spend significant 
amount of time on issues dealing with the District. The issue 
before us today is one that is very important.
    Today we meet for the second time this Congress to examine 
the collective ability of the governments and responsible 
authorities of the National Capital Region (NCR) to respond to 
a catastrophic event, be it a terrorist attack or a natural 
disaster. As the seat of the Nation's Government, the National 
Capital Region is a prime target for a terrorist attack.
    We must do all that we can to prevent another attack to 
this region and the Nation, but as Hurricane Katrina 
demonstrated, we must also be prepared to respond to all types 
of hazards.
    Since September 11, the NCR has received significant 
resources for equipment, training, planning, and other 
preparedness efforts. As the Senate Subcommittee that has 
authorizing jurisdiction over all matters relating to the 
District, it is our responsibility to provide effective 
oversight to ensure that this region, which houses the Federal 
Government and is the symbol of freedom to the world, is well 
prepared to respond.
    In addition, the full Committee and this Subcommittee have 
been involved in the development and refinement of the 
Department of Homeland Security and have worked closely with 
Secretary Chertoff in that regard. The Subcommittee has closely 
tracked the Secretary's Second Stage Review, offering 
assistance wherever possible. Last year, I cosponsored S. 21, 
Senator Collins' legislation, to help State and local 
governments and first responders receive Homeland Security 
resources in an efficient and timely manner and create a means 
of ensuring that essential capabilities required are met. We 
want to ensure the National Capital Region is a model of 
preparedness for the entire Nation.
    The National Capital Region faces many unique challenges in 
its preparedness efforts. Because the region consists of 
Federal, State, and local jurisdictions, there is no single 
person or office in charge with the authority to order 
preparedness activities across the region. As a former governor 
and mayor, I understand the difficulties in bringing together 
many different players with limited resources to accomplish a 
common goal.
    To address these challenges, the Office of National Capital 
Region Coordination with the Department of Homeland Security 
was established in the Act. The office was created to oversee 
and coordinate Federal programs and preparedness initiatives 
for State, local, and regional authorities. We need to ensure 
that this office and the other responsible governments of the 
region are effectively using their resources and adequately 
executing their responsibilities.
    In June 2004, the General Accounting Office, the Government 
Accountability Office released a report which recommended that 
the Office of National Capital Region Coordination work with 
local jurisdictions to develop a coordinated strategic plan to 
establish goals and priorities, monitor the plan's 
implementation, and identify and address gaps in emergency 
preparedness. It also recommended a mechanism to evaluate the 
effectiveness of expenditures by conducting assessments based 
on established standards and guidelines. I look forward to 
learning how the NCR has responded to the GAO recommendations.
    I am pleased to hear that the Office of Homeland Security, 
within the District, has developed a web-based tracking system 
or program to manage and monitor the region's Urban Area 
Security Initiative grants. However, I do have concerns with 
the lack of information of non-UASI funding in this database.
    In joint response by Virginia, Maryland, and the District 
to a question from the last hearing regarding the progress made 
on tracking Federal funds, the response was that the NCR is 
absolutely committed on coordination of all resources. I look 
forward to hearing how this program is working and if the 
region fully plans to implement the recommendations of GAO to 
track all grant funding.
    Furthermore, I look forward to learning of the progress 
made with regard to the National Capital Region's strategic 
plan. In our first Subcommittee hearing in July 2005, Mr. 
Lockwood testified that a final draft of the strategic plan had 
been circulated to key stakeholders and that it would be 
released in September 2005. Eight months later, and 6 months 
since the proposed release date, the region has yet to release 
a final version of the strategic plan. This is unacceptable, 
and we would like to know why the delay.
    It is both urgent and critical that the National Capital 
Region develop an effective strategic plan to establish goals 
and priorities for the region. It is contrary to good 
management practices to proceed with large expenditures without 
a strategic plan. This delay has to be explained. Additionally, 
I strongly recommend that in the final development of the plan, 
the region officials take advantage of the assistance of GAO. 
The cooperation between the Office of Management and Budget and 
GAO on developing strategic plans to address high-risk programs 
can serve as a model in this regard.
    Finally, I would like you all to provide the Subcommittee 
with a date for the completion of this plan and stick to it. I 
assure you that I will continue to monitor your progress, as 
well as Senator Akaka.
    After the poor response to Hurricane Katrina, we saw the 
importance of establishing a clear chain of command before a 
catastrophic event occurs. Because the NCR has multiple 
entities involved with the security, it is imperative that we 
know who is in charge. I am interested in hearing how the NCR 
is addressing this issue as well as if you have assigned 
ownership of programs and response within your strategic plan.
    Before concluding my remarks, I would like to recognize the 
hard work and dedication of those individuals who are 
collaborating between all levels of government, the private 
sector, and the nonprofit community to improve the safety of 
this region. I do not want anything said here today to say that 
we do not appreciate the hard work that all of you are doing.
    As I stated in the last hearing, I offer whatever 
assistance I can to ensure you have the necessary resources to 
get the job done. If there is something standing in the way, 
something in terms of homeland security, we want to know about 
it. Don't we, Senator Akaka?
    Senator Akaka. Yes.
    Senator Voinovich. I now yield to my good friend, Senator 
Akaka, for his opening statement.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Chairman Voinovich. It 
is a pleasure to work with you on this Subcommittee. Today we 
follow up on the National Capital Region hearing that the 
Subcommittee held last July.
    I would like to welcome our witnesses back to the 
Subcommittee, and also looking at those who are attending this, 
I want to welcome all of you, too. And, Mr. Crouch, you are the 
only new face here today, and we are happy to have you 
representing the Commonwealth of Virginia.
    As you know, the security of the National Capital Region, 
which includes the District of Columbia and the surrounding 
counties in Maryland and Virginia, became a heightened priority 
after the attacks of September 11, 2001. To address this 
concern, Congress created an Office of National Capital Region 
Coordination in the Department of Homeland Security to oversee 
and coordinate Federal programs and domestic preparedness 
initiatives for State, local, and regional authorities within 
the National Capital Region. Coordinating so many jurisdictions 
and levels of government is an immense challenge, yet we must 
ensure the NCR is able to function as a cohesive body in times 
of crisis.
    Last July, I expressed my hope that the NCR will serve as a 
model for other urban areas as the country moves towards a more 
regionalized preparedness model. We saw during Hurricane 
Katrina the chaos and suffering that can result from 
insufficient coordination between different levels of 
government. Conversely, residents of Hawaii witnessed 
government coordination at its best over the past few weeks as 
Federal, State, and local officials worked together to mitigate 
flooding on the Island of Kauai.
    The NCR presents far greater intergovernmental coordination 
challenges than anywhere else in the country because of the 
strong Federal presence in the District. Who responds, how they 
respond, and who is in charge of the response are questions 
that should be answered long before disaster strikes.
    The lack of coordination between DHS and the D.C. 
Government was demonstrated by the handling of a breach of D.C. 
airspace by a small plane on May 11 of last year, and I think 
the Chairman alluded to that. Mayor Williams was not notified 
of the incident until it was almost over, approximately 40 
minutes after DHS began tracking the plane.
    At our last hearing, Mr. Reiskin testified that DHS and the 
District were working on communication protocols for major 
security incidents in the District. I am eager to hear how 
these protocols have been implemented and whether coordination 
has improved.
    We should not forget that one of the reasons the DHS Office 
of National Capital Region Coordination was created in the 
first place was to facilitate Federal, State, and local 
communications in the NCR. Mr. Lockwood, you represent the 
Federal piece of the NCR, and it is your job to ensure Federal 
agencies work with the State and local authorities. I see this 
intergovernmental facilitation as one of the primary reasons 
DHS is part of the NCR.
    I understand that NCR has conducted numerous planning 
sessions and meetings as a region, and I commend you for that 
cooperation. However, this Subcommittee has been concerned over 
the lack of having a Homeland Security Strategic Plan for the 
NCR.
    Operational planning is good, but it needs to be guided by 
a strategic blueprint. I am disappointed that 4\1/2\ years 
after September 11 the NCR still does not have a strategic plan 
that all Members endorse.
    GAO first alerted the NCR to the importance of developing a 
strategic plan almost 2 years ago, and at our July 2005 hearing 
each of you testified that a draft strategic plan was complete 
and a final version would be ready by September 2005. Today, 6 
months after that deadline lapsed, a final strategic plan has 
yet to be completed. The people who live here, no question, 
deserve better than that.
    I also would like to take this opportunity to discuss the 
NCR's ability to track homeland security spending by its member 
governments. The NCR needs to know what investments have been 
made in its region--this includes Federal and State funding--so 
as not to be duplicative with its Urban Area Security 
Initiative funds. This is not simply a bookkeeping exercise. I 
believe the NCR has made progress towards this goal, but it is 
my understanding that this capability has not yet been 
achieved.
    I would like to thank each of you for your service. I 
recognize that your workload and responsibilities have 
increased significantly in recent years and your offices are 
all understaffed. However, I know you agree that ensuring the 
security of our Nation's capital must be top priority.
    I look forward to your testimony and to continuing to work 
with all of you. Thank you very much, Mr. Chairman.
    Senator Voinovich. I would like to point out to the 
witnesses that Senator Akaka and I did not coordinate our 
opening statements. But the fact that they were so much alike 
underscores our mutual concern about the planning.
    We look forward to hearing what you have to say, and we are 
very fortunate today to have Thomas Lockwood, who is the 
Director of the Office of National Capital Region Coordination 
at the Department of Homeland Security; the Hon. Robert Crouch 
is the Assistant to the Governor for Commonwealth Preparedness 
for the Commonwealth of Virginia; the Hon. Dennis Schrader is 
the Director of the Maryland Governor's Office of Homeland 
Security; Edward D. Reiskin is the Deputy Mayor for Public 
Safety and Justice for the District of Columbia; and, finally, 
William Jenkins is the Director of Homeland Security and 
Justice Issues at the Government Accountability Office.
    Mr. Lockwood, we will start with your testimony. I would 
like you to understand that we would like you to complete your 
testimony within 5 minutes. Your entire statement will be 
inserted in the record, and we are glad to have you here.

 TESTIMONY OF THOMAS LOCKWOOD,\1\ DIRECTOR, OFFICE OF NATIONAL 
   CAPITAL REGION COORDINATION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Lockwood. Thank you all, and thank you for the 
opportunity to update you on the work that we have done since 
we talked to you in July.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lockwood with attachments appears 
in the Appendix on page 33.
---------------------------------------------------------------------------
    Since July, we have made great strides in strategic 
planning of where we are and where we are going. Several times 
today you are going to hear the phrase either ``partners'' or 
``teammates.'' The region is diverse, and includes Maryland, 
Virginia, the District, the Executive, Legislative, and 
Judicial Branches, regional authorities, the private sector for 
profit and not-for-profit, and our international participants. 
We have made an active effort to integrate and bring these 
parties together.
    Our plan, the 2005 National Capital Region Strategic Plan 
\1\ addresses this challenge by defining the priorities and 
objectives for the entire region without regard to any specific 
funding mechanisms, provides strategic guidance to the 
application and allocation of all homeland security and 
preparedness grants throughout the region, and provides input 
to the future internal planning, programming, and budgeting 
processes of the NCR jurisdictions.
---------------------------------------------------------------------------
    \1\ The ``2005 Update to the National Capital Region Homeland 
Security Strategic Plan'' appears in the Appendix on page 40.
---------------------------------------------------------------------------
    The NCR homeland security partners have been absolutely 
dedicated to building a strategic plan. As a starting point, we 
have decided on and we have leveraged the foundational work 
from September 11 through today. This includes a 2002 Regional 
Emergency Coordination Plan; the Eight Commitments to Action in 
2002 through the Governor and Mayor, and Advisor Ridge; the 
2003 UASI Strategic Plan; the recommendations from the Chief 
Administrative Officers in 2004; and, again, working with the 
practitioners of the emergency support functions, even in 2005.
    Additionally, the Federal documents that were foundational 
to our strategic plan were: The National Strategy for Homeland 
Security, the Department of Homeland Security Strategic Plan, 
Homeland Security Presidential Directives, the National 
Incident Management System, the National Response Plan, various 
templates, and various grant guidances. We have used these as 
an integrating framework between national and regional 
initiatives to build our framework.
    From August 2004 to June 2005, we went through a detailed 
consensus-building phase. Through this phase, we decided to 
take an all-hazards approach. This was an extensive discussion. 
The leadership at all levels agreed that this should be an all-
hazards approach.
    One of the key foundational principles that we came to was 
strengthening regional coordination among all partners to gain 
synergy without weakening jurisdictional autonomy. That is a 
foundation for what we do in the NCR. How do we coordinate but 
recognize the organizational or jurisdictional distinctions 
between us; to prepare for all-hazards, to advance safety, to 
foster a culture of collaboration, respect, innovation, mutual 
aid amongst all of the partners, and to adopt best practices. 
These guiding principles help shape the vision, which is 
working together toward a safe and secure National Capital 
Region. Using these principles to guide planning within the 
context of the overall mission and vision, the leadership could 
then gain agreement on the high-level goals and objectives.
    That initial development took place between June and 
November. Once the overall framework was established and agreed 
to during the NCR-wide strategic planning in June, we continued 
to work together through multiple groups. There were four core 
goal groups. Participants in these groups included Federal, 
State, local representatives, regional representatives, 
representatives of core practitioner groups, not-for-profits, 
civic groups, and private sector representatives.
    We have continued to mature those goals through the Katrina 
time period and through the events that we had in the fall. 
These were framed out. In fact, having worked with these groups 
and targeting the November time frame so that the work was done 
prior to this grant cycle, we aligned priorities against the 
core capability task lists to define our priorities prior to 
this grant cycle. Those priorities align with both the national 
priorities and the regional priorities. Deputy Mayor Reiskin's 
section will explain in detail, how these priorities and 
initiatives were foundational for the process now and moving 
forward.
    Our update, which has been available since, I believe, 
October on the Council of Governments web page, will contribute 
to the NCR's success by providing numerous important related 
benefits such as a more efficient allocation of resources 
throughout the region, transportation and funding priorities, 
and increased communication and interaction with our 
coordinating stakeholders.
    This region has been actively engaged to develop out and to 
mature a strong framework across the multiple partners.
    Thank you, sir.
    Senator Voinovich. Thank you. Mr. Schrader.

TESTIMONY OF DENNIS R. SCHRADER,\1\ DIRECTOR, GOVERNOR'S OFFICE 
            OF HOMELAND SECURITY, STATE OF MARYLAND

    Mr. Schrader. Mr. Chairman, Mr. Ranking Member, thank you 
for having us here today. I am going to focus on the strategic 
plan implementation and how we have gone about that.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Messrs. Schrader, Reiskin, and 
Crouch appears in the Appendix on page 45.
---------------------------------------------------------------------------
    Strategic Goal No. 1 talks about a collaborative culture 
for planning, decisionmaking, and implementation across the 
NCR, and there are six objectives within that goal that focus 
on risk assessment, identification of priorities, and gaps in 
the enhancement of our project delivery process to ensure 
accountability.
    For the past 2 years, the NCR has focused on improving its 
execution of projects to create tangible outcomes, which you 
will hear from Mr. Crouch here in a minute. And the key to this 
is effective regional decisionmaking. There are probably 200 or 
300 key stakeholders that we are coordinating with throughout 
the region, which at the meetings we held, there were probably 
60 to 80 people at any one of these facilitated meetings. So 
effective regional decisionmaking and program management are 
keys to implementing this plan, which has multiple initiatives, 
programs, and objectives, of which 16--we have 45 initiatives 
that were identified--are key initiatives that are focused on 
as priorities in the grant process which Mr. Reiskin will talk 
about.
    The Senior Policy Group has the responsibility for 
oversight of homeland security grant funding for each of the 
individual States and the urban areas on a day-to-day basis, so 
myself and John Droneburg from Maryland, as is the same in the 
other jurisdictions, we have day-to-day responsibility, and we 
track the overall--in Maryland, for example, we have $369 
million in all categories, and then, of course, we have the 
$171 million from the NCR.
    In that vein, we have directed our State administrative 
agents to get together to start comparing information. That is 
happening. And then the States have to coordinate their 
programs together with the Federal Government and the local 
jurisdictions. And we do that working closely with the chief 
administrative officers and their practitioners through the 
Washington Council of Governments. But the other thing we have 
done since the last time we spoke to you which is very 
important, is we have created these regional program working 
groups, which are our people in the State enterprise who are 
doing this work on a day-to-day basis. So, for example, the key 
priorities, like critical infrastructure protection, 
intelligence, information sharing, interoperability, we have 
work groups that are organized that are accountable back to us 
so that we are getting integration between the State dollars 
that are being spent and the NCR dollars.
    Moving on to program management, we are continuously 
improving our process to implement the strategy through the 
program management function that has been established. As I 
said, we have got $188 million in UASI, which includes a $13 
million regional transit grant. We are paying particular 
attention to the expenditure rate as a first priority. The last 
time we talked to you, we had a 17.6 percent expenditure rate 
on the total dollars. It is now 39.5 percent, so we have put a 
lot of focus on driving that program process.
    We believe that improving the project management process is 
critical to the implementation of the plan, and we are very 
focused on that.
    I would like to also mention on these regional program 
working groups, that they have representatives from our States. 
So, for example, the individual who runs the critical 
infrastructure protection program in Maryland is the same 
person who is on the NCR group, so they are tied together. My 
colleagues in the District and Virginia have done the same 
thing, and it has led to things like, for example, WEBEOC, 
which is an incident management product that we piloted in 
Maryland. It is now being migrated into all the jurisdictions 
so we are able to talk to each other and integrate our 
operations centers. So there are very tangible outcomes.
    Finally, the Office of National Capital Region Coordination 
has facilitated a working relationship with Joint Forces 
Command here in the NCR, which has been very productive. The 
Joint Forces Command is helping to coordinate the DOD and NCR 
capabilities. We are trying to figure out how to exercise 
together, and there are monthly meetings now hosted by the 
Joint Forces Command with Federal, State, and local officials 
to create visibility and prioritization of all the exercises in 
the NCR, which is no small task.
    Finally, on the airspace incursion, I think Mr. Reiskin 
will talk about this, but since we have met last, the Domestic 
Events Network monitoring stations have been installed in the 
District in a couple of places, as well as the HSOC, and there 
has been significant improvement in that over the last year--or 
almost a year.
    So I will stop there, and I would just say that we believe 
that program management, which is a hallmark of DOD program 
management and strategy implementation, is our objective, and 
we are going to drive to continue improving that process to 
satisfactorily meet our expectations.
    Thank you, Mr. Chairman.
    Senator Voinovich. I will now call on Mr. Reiskin.

TESTIMONY OF EDWARD D. REISKIN,\1\ DEPUTY MAYOR, PUBLIC SAFETY 
               AND JUSTICE, DISTRICT OF COLUMBIA

    Mr. Reiskin. Thank you, Mr. Chairman and Ranking Member 
Akaka.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Messrs. Schrader, Reiskin, and 
Crouch appears in the Appendix on page 45.
---------------------------------------------------------------------------
    You heard from Mr. Lockwood about the extensive strategic 
planning process that we went through both before and 
subsequent to the last hearing, and that did get us to a point 
by last fall where we had a consensus on a vision, mission, 
goals, objectives, and priority initiatives.
    You also heard from Mr. Schrader, who described how we 
matured our processes and relationships such that all 
stakeholders--State, regional, local, Federal--leverage and 
complement each other to support the intensive program 
management structure needed to manage such a significant 
enterprise, which is what Mr. Schrader just referred to in his 
closing.
    So to pick up from where they left off, I want to bring you 
forward to the present to explain how our work in recent months 
follows from and supports our strategic plan.
    We met with members of your staff last December shortly 
after having received the fiscal year 2006 homeland security 
grant program guidance. Although the guidance was developed for 
a specific set of grant programs, it did contain an element 
designed to look more broadly beyond the grant program. The 
enhancement plan, which was a part of the application process, 
as I understood it when we met with your staff, would provide 
for enhancing our capabilities, not limited to single grant 
funding sources or a grant performance period. While it did 
take that broader perspective, as we went through the process, 
it did not get us to the level that GAO recommends, and that we 
are striving for in terms of specific outcomes, milestones, and 
performance measures for each of the program areas.
    That process, the enhancement of the planning process, 
started with the identification of priority capabilities for 
the region that we added to national priorities that were 
designated by the Department of Homeland Security. Using our 
recently completed strategic plan as a guide, the State and 
local leadership of the region identified six capabilities that 
represented the region's priorities, so those came directly 
from the strategic plan.
    We then tasked regional working groups with undertaking 
capability reviews of each priority capability, which led to 
the completion of the enhancement plan. That plan, while rich 
in depth with regard to our capabilities, is not an 
implementation document. In other words, again, it does not 
specify outcomes, milestones, and performance measures, nor 
does it identify the implementing parties, specifically. It 
did, however, serve its purpose as a basis, that was framed by 
the strategic plan for the leadership, allowing them to develop 
its proposal for the 2006 grant applications.
    As Mr. Crouch will discuss, we are now refining work in 
each of those priority capability areas--we have 14 of them--
which we will fold back into the implementation aspect of the 
strategic plan. So the enhancement plan work will support the 
broader need, in other words, beyond the current UASI grant, 
and will help flesh out many, though not all, aspects of the 
strategic plan.
    Our written testimony provides a lot of detail on the 
process, and we have provided the outcomes of that process to 
your staff. But before turning it over to Mr. Crouch, I do want 
to summarize where we were and where we are.
    We had been undertaking our strategic planning process with 
all the key regional stakeholders for some time when the 
Department of Homeland Security issued strategy guidance last 
summer. We then endeavored to adjust our process to come in 
line with that guidance.
    Then in December, just 2 weeks after we had completed the 
first major phase of our strategic planning process, the 
Department issued its grant guidance, which, while not 
completely unexpected, represented a significant departure from 
previous guidance and the processes needed to support them.
    The new guidance was firmly grounded in the National 
Preparedness Goal, which is a good thing and something that we 
in the region very much support. It did, however, cause us to 
reorient, because although our strategic plan was developed 
fully mindful of the National Preparedness Goal, it did not use 
that goal as its framework.
    So using our strategic plan to provide the strategic 
direction, we then had to begin a completely different process 
in order to execute the grant application in order to align 
with the priority capabilities, which then led to the 
development of the enhancement plan that I referenced. That 
plan did flow from our strategic plan and was worked 
essentially by the same people, those folks in the room that 
Mr. Schrader referred to. More or less the same people who 
worked on the strategic plan are the ones who then worked on 
the enhancement plan. The enhancement plan, however, is a very 
different orientation than the four goals of our strategic 
plan.
    But with the enhancement plan now, we have gone a level 
deeper and with a different orientation that we will now fold 
back into the maturation of our strategic plan into an 
implementation document, as Mr. Crouch will now describe.
    Senator Voinovich. Thank you. Mr. Crouch.

    TESTIMONY OF ROBERT P. CROUCH, JR.,\1\ ASSISTANT TO THE 
GOVERNOR FOR COMMONWEALTH PREPAREDNESS, OFFICE OF COMMONWEALTH 
             PREPAREDNESS, COMMONWEALTH OF VIRGINIA

    Mr. Crouch. Thank you, Mr. Chairman and Ranking Member 
Akaka.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Messrs. Schrader, Reiskin, and 
Crouch appears in the Appendix on page 45.
---------------------------------------------------------------------------
    Mr. Reiskin spoke to where we have been and where we are 
now, and as the newest member of this panel, it is my pleasure 
to speak of the direction in which we are going. I think it is 
significant, as the Chairman noted, that both the Chairman and 
the Ranking Member made reference to the National Capital 
Region serving as a model for the Nation. It has impressed me 
in the 2\1/2\ months that I have been in my current position 
that commitment strongly exists among all of the participants 
at the local, State, and Federal level involved in the National 
Capital Region efforts.
    Certainly critical to that is our finalization of a 
strategic plan. I have been asked by my colleagues to share 
with the Chairman and the Ranking Member that it is our 
intention to have that final strategic plan completed no later 
than August of this year. Incorporated into that final 
strategic plan, which we will use as our guide for the coming 
years in working with our local, State, and Federal partners, 
will be several efforts that are ongoing currently. One is a 
detailed, rigorous assessment of preparedness levels by our 
local partners and State partners entitled the ``Emergency 
Management Accreditation Program.'' This reviews emergency 
operations at all levels. It is a nationally accredited plan, 
one in which only eight States have actually received 
accreditation, and we will be applying the results of that 
exercise in the final strategic plan, which we will have 
complete by August.
    Additionally, we will also fold into the final strategic 
plan the results of the President's and Congress' direction for 
a nationwide plan review. That effort will be completed in time 
to be rolled into the strategic plan as well.
    We would like to share with you some of the tangible 
accomplishments that have occurred within the National Capital 
Region since this group met with you last in July 2005. We have 
begun building an interoperable communications platform, which 
will provide secure, non-commercial, restricted access to 
critical region communications networks for both high-speed 
fiber optics and wireless broadband mobile communications. This 
platform will ensure that the infrastructure is in place for 
facilitating real-time, any-time data communications within the 
National Capital Region. The first stage of this effort, which 
will incorporate all the jurisdictions out to the Beltway, will 
be completed by January 2007.
    We have developed an electronic surveillance system called 
ESSENCE for the early notification of community-based 
epidemics. ESSENCE uses both traditional and non-traditional 
data such as a hospital emergency room chief complaints, 
military outpatient encounters, physician office visit claims, 
and over-the-counter medication sales to display potential 
epidemiological anomalies.
    We have completed the National Capital Region Surge 
Capacity Concept of Operations Plan to determine the available 
hospital beds throughout the Maryland, Virginia, and District 
of Columbia hospitals that would be available in the event of a 
critical event, again, applying our all-hazards approach to 
these issues.
    We are currently linking, as Mr. Schrader indicated 
earlier, all emergency operation centers within the National 
Capital Region and installing a common communication/emergency 
operation software--WEBEOC.
    Each jurisdiction within the National Capital Region has 
been supplied with an electronic citizen notification system, 
and we have purchased a second round of turn-out gear for all 
firefighters within the National Capital Region, thus allowing 
the individual firefighter to continue to function, even if the 
first round of gear is contaminated during an incident.
    As we move forward with our completed strategic plan 
seeking to be the model of the Nation, our goal is to 
demonstrate that in the complicated layering of government--
local, State, and Federal--across jurisdictional lines in the 
National Capital Region, perhaps unparalleled elsewhere in the 
Nation, that if we can get it right here, our comrades 
throughout the country can also use this as a template to 
approach their efforts and cooperation.
    We also, as we move forward, appreciate the resources that 
this Committee and others have extended to us and would like to 
reiterate the continuing need particularly for Emergency 
Management Preparedness Grant funds to supply the resources we 
need to do this work. Thank you, gentlemen.
    Senator Voinovich. Thank you. Mr. Jenkins.

  TESTIMONY OF WILLIAM O. JENKINS, JR.,\1\ DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Jenkins. Chairman Voinovich and Ranking Member Akaka, I 
appreciate the opportunity to be here today to discuss the 
status of strategic planning for emergency preparedness in the 
National Capital Region. Effective strategic planning is 
essential for setting clear goals and priorities, guiding the 
effective use of resources, and measuring success and achieving 
targeted levels of preparedness for all types of major 
emergencies, including catastrophic events, whether the result 
of nature, accident, or deliberate action.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jenkins appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    A well-defined, comprehensive strategic planning for the 
NCR is an essential part of assuring that the region is 
prepared for the risks it faces. The Office of National Capital 
Region Coordination has worked closely with NCR member States, 
local jurisdictions, and nongovernmental entities to establish 
collaborative working relationships and processes for assessing 
emergency preparedness needs and developing a strategic plan 
for the region. Such collaboration and stakeholder input and 
buy-in is important. However, there is still not a completed 
strategic plan for the region, and according to the NCR, 
completion of the plan will require integrating information and 
analyses from other documents, which the other witnesses have 
described, that are completed or nearly complete.
    A November 18, 2005, NCR presentation describes the NCR's 
vision, mission, goals, objectives, and priority initiatives. 
This document contains some elements of a good strategic plan, 
including some performance measures, some target dates, and 
some cost estimates.
    On March 14, the NCR provided us with copies of additional 
documents that officials said were to be incorporated into the 
strategic plan. Not yet available was the completed assessment 
of the NCR and its individual jurisdictions using the Emergency 
Management Assessment Program criteria.
    The majority of the documents provided to us were developed 
in response to DHS requirements such as the National 
Preparedness Goal and in support of the NCR's fiscal year 2006 
homeland security grant application. NCR's investment 
justification in support of its fiscal year 2006 grant 
application includes 12 of the NCR priority initiatives as 
identified in the November 18 core planning document. These 
investment justifications include such initiatives as mass care 
and citizen preparedness and participation. However, not all of 
the 12 individual investments in the grant application were 
among the region's priorities.
    For example, strengthening interoperable communications is 
a national priority, and a regional priority, but it was not 
included in the 16 priority initiatives that the NCR identified 
in November 2005. It is important and necessary, of course, 
that the NCR address national priorities and goals in its 
strategic plan, but it is equally important and necessary that 
a final strategic plan clearly integrate national goals, 
priorities, and requirements with regional goals, priorities, 
and requirements.
    The plan should be based on an assessment of the risks the 
region faces and the capabilities needed to reduce those risks. 
The documents we received have no discussion of those two 
elements.
    A completed strategic plan that builds on the November 18 
presentation should review, strengthen, and clarify the 
following core elements of a strategic plan: It should clearly 
identify initiatives that will accomplish the objectives of 
each strategic goal; include performance measures and targets 
that indicate how the initiatives will accomplish the 
objectives; include milestones and target dates for 
accomplishing individual initiatives; include specific 
information on the resources and investment for each 
initiative; and it should also clearly identify organizational 
roles and responsibilities for coordination, integration, and 
implementation of the plan, including clear assignment of 
accountability for implementing specific initiatives.
    It is also important that the NCR plan identify how it 
relates to, and leverages, the efforts and resources of the 
District, Maryland, Virginia, and individual local member 
jurisdictions. We appreciate that a regional approach to 
emergency preparedness has not been the historic norm in the 
NCR or elsewhere. Emergency preparedness has largely been 
approached as the responsibility of individual local 
jurisdictions supplemented with mutual aid agreements.
    We also recognize that a strategic plan, once initially 
completed, is a living document that requires continual 
reassessment as risks, capabilities, and resources change. But 
before the plan can be fully assessed, it must first be 
completed.
    Senator Voinovich. Thank you very much.
    Mr. Reiskin, you are the deputy mayor in charge of 
preparedness, correct? You are appointed by the mayor?
    Mr. Reiskin. That is correct.
    Senator Voinovich. The District is going to have an 
election in November.
    Mr. Reiskin. That is correct.
    Senator Voinovich. You are knowledgeable about the NCR. I 
think all of you should recognize that if there is a change in 
leadership, Mr. Reiskin may not have his job. It is important 
that you take advantage of the fact that we have got some time, 
but not a whole lot. I just bring that up.
    Mr. Crouch, you have been in your job for 2\1/2\ months?
    Mr. Crouch. Yes, sir.
    Senator Voinovich. Your predecessor is now working for the 
Department of Homeland Security.
    Mr. Crouch. Yes, sir. My predecessor, George Foresman, is 
now Under Secretary for Preparedness for the Department of 
Homeland Security, yes, sir.
    Senator Voinovich. Obviously recognized for his background. 
We welcome you to the team.
    Mr. Jenkins, a very simple question is: Do you think that 
it is possible for the NCR to effectively manage Federal 
homeland security funds and be adequately prepared for a 
catastrophic event without a collaboratively written final 
strategic plan?
    Mr. Jenkins. In a word, no.
    Senator Voinovich. If we had a natural disaster or 
terrorist attack today, the NCR would be at a disadvantage 
because the strategic plan is not in place?
    Mr. Jenkins. Well, I think it is hard to say how 
disadvantaged. In a sense, I think it is a question knowing in 
what way they would be disadvantaged. As I said, the real issue 
is identifying the risks that you face and the capabilities 
that you need to be able to address those risks. And in the 
documents that we have got, there is very little discussion of 
the risks that are faced or the capabilities that are needed. 
There is a lot of discussion of particular initiatives, of 
particular activities, of particular projects, but it is not 
easy with the documents we have to figure out what they add up 
to.
    Senator Voinovich. So it is risks and capabilities. Those 
of you that are charged with the responsibility of coordinating 
the NCR, do you understand those things that GAO says are 
missing? And are you responding to them? In other words, Mr. 
Jenkins, have you communicated to the NCR what GAO thinks 
should be in the plan? I encourage the NCR to use GAO as a 
valuable resource in developing their plan.
    Mr. Lockwood. Mr. Chairman, if I may?
    Senator Voinovich. Yes.
    Mr. Lockwood. The working group here between Maryland, 
Virginia, the District, and DHS has worked collaborately--we 
have worked together as a matter of course, just building out 
the documents, but we have also opened up the process to GAO to 
share all of the documents we have. It is not as though we are 
providing finished, copied, or camera-ready documents to GAO. 
We have opened up our internal working process and our internal 
working documents to GAO, which show exactly what we are doing.
    GAO has been very open with the things that they expect to 
see in a strategic plan to help us shape our requirements and 
our phases as well. We have asked GAO to provide 
recommendations of what they see or what they want to see in 
strong, guiding strategic plans.
    Senator Voinovich. Can you give us a date as to when you 
believe that you will be able to announce that the plan is 
completed?
    Mr. Reiskin. In our testimony, Mr. Chairman, we reference 
August of this year, August 2006, as when we believe that we 
will have the strategic plan done to the level that both we--
and we do agree with the GAO, that we are comfortable with in 
terms of having adequate specificity in terms of milestones, 
performance measures, accountable parties. Of our strategic 
plan, we have identified 16 priority initiatives, and all of 
those by August will be developed with all of those elements as 
prescribed by the GAO. And as we have discussed with GAO, we 
welcome their input as we continue to develop this.
    Senator Voinovich. I should point out that you did not give 
GAO the documents until March 14.
    Mr. Jenkins, do you think that this August date is 
reasonable?
    Mr. Jenkins. It is a little bit difficult for us to say. 
They do have these other documents that they need to meld into 
it. I think they do need an overarching statement of risks and 
capabilities that they are aiming for, and at least in the 
documents that we got, that seems to be missing. And I think 
that is an important component of the plan that is not in there 
now.
    Senator Voinovich. Do you understand that, that he wants 
risks and capabilities? That is a big area.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to note that I am directing my questions on 
the strategic plan to Mr. Lockwood because his testimony 
focused on the plan. However, I would like to invite any of the 
NCR representatives to answer the following questions as well.
    Mr. Lockwood, I want to clarify a few things in your 
testimony. First, you mentioned that you are working on an 
update to the NCR-HLS strategic plan. To me, this implies that 
a strategic plan exists. I want to make sure we are clear. The 
document entitled ``NCR Plenary Session,'' dated November 17, 
2005, is this the document that you are referring to as the 
strategic plan?
    Mr. Lockwood. On the website in September, we published the 
visions, the goals, and the guidelines. The document that you 
see, the November document, is a much more detailed level, 
including the accountability, the goals, and the measures.
    One of the things that the region felt very strongly about 
was their strategic plans, even though they did not meet the 
GAO criteria, they continued to build upon and leverage the 
previous agreements that they came to. The region agreed that 
this should be an update of the regional strategic plan.
    Three core pieces need to be folded in and we made the 
decision to hold off until these three pieces were done:
    One, the national review following Katrina, the review of 
the catastrophic planning indexes needed to be done by the 
State, territories, District of Columbia, and all 75 major 
urban areas. That is taking place now. Two, the enhancement 
review that you saw through the Urban Area-Security Initiative 
and SHSGP money, is also taking place.
    Last, the EMAP assessments, as we look at those core major 
foundational projects, they will have much more detailed level 
that need to be shaped and integrated into the strategic plan 
itself.
    Senator Akaka. One question about the document previously 
mentioned, Mr. Lockwood. Is there a reason the document is not 
labeled ``Draft NCR-HLS Strategic Plan''?
    Mr. Lockwood. The document that you have in front of you is 
actually from the plenary session, where we had a host of 
Federal, State, and locals, to review work that the individual 
groups worked on from July through November and to agree on the 
framework points for the UASI section, the next session. That 
document will continually be updated. That document was also a 
core reference point for driving the priorities for this year's 
grant process.\1\
---------------------------------------------------------------------------
    \1\ The ``FY 2003 Urban Area Homeland Security Strategy, National 
Capital Region,'' October 22, 2003 appears in the Appendix on page 80.
---------------------------------------------------------------------------
    Senator Akaka. When you appeared before the Subcommittee in 
July 2005, you testified that the NCR had completed a draft 
strategic plan. Can you tell me how that document differed from 
the NCR Plenary Session document?
    Mr. Lockwood. The vision, mission, goals, objectives, the 
guiding principles have been consistent. The framework that we 
had hoped to publicly announce and we had released on the 
websites back in September, in fact, was done. The detailed 
levels to guide the spending, the performance levels, the 
roles, the responsibilities, target milestones, the key content 
that GAO is looking for in a strategic plan, was not matured 
enough, and it took us several weeks and several comprehensive 
meetings just to break out the pieces that you see in that 
November plenary session.
    Senator Akaka. As I looked through your testimony, I found 
your timeline for the strategic plan development confusing. You 
said that the consensus-building phase lasted from August 2004 
through June 2005, and the initiative development phase lasted 
from June 2005 to November 2005. Yet when you testified before 
the Subcommittee in July 2005, you said that you had completed 
a draft strategic plan and that the final plan would be done in 
September 2005. When did your timeline change? And why?
    Mr. Lockwood. There are a couple of key pieces in this. 
Again, the vision, mission, goals, objectives, principles have 
been fairly consistent as we were boiling these down and 
driving consensus across those. By summer, those were pretty 
well completed. The core problems that we have is at the 
detailed level and detailed agreement on who has which 
responsibilities, who are the supporting organizations, what 
are the resources required to deliver those.
    The consensus process around the details takes much longer 
to do. The other complicating fact is that the people that are 
executing the programs are also doing the strategic planning. 
Thus if there is a major event or if there is a major break in 
the workload to do an event, we stop the strategic planning.
    Senator Akaka. Yes, well, my time is up, Mr. Chairman, but 
let me ask one question of the rest of you, and you can give me 
a one-word answer. Will you commit to keep the Subcommittee 
updated on the status of the plan?
    Mr. Reiskin. Yes.
    Mr. Crouch. Absolutely.
    Mr. Schrader. Yes.
    Senator Akaka. Thank you. Thank you, Mr. Chairman.
    Senator Voinovich. I would like to have you submit for the 
record how you are going about keeping the Subcommittee up-to-
date on the plans so we have something in writing.
    I am very happy to have Senator Warner here. Senator Warner 
is the senior Senator from Virginia. This NCR plan has enormous 
impact on your constituents. Senator Warner, do you have a 
statement?

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Mr. Chairman. I will ask 
unanimous consent to put my prepared statement in the record.
    Senator Voinovich. Without objection.
    [The prepared statement of Senator Warner follows:]
                  PREPARED STATEMENT OF SENATOR WARNER
    Mr. Chairman, thank you for calling this hearing today to look at 
the preparedness of the Nation's Capital. I, unfortunately, was not 
able to attend your first hearing on this topic last summer and very 
much appreciate your continued efforts in this arena as it is of the 
highest importance.
    After the September 11 attacks, the National Capital region's 
congressional delegation worked together to create the Office of 
National Capital Region Coordination (ONCRC). In the legislation 
creating the Department of Homeland Security we inserted a provision 
that created the office we have represented today. The ONCRC has the 
mission to ``oversee and coordinate Federal programs for, and 
relationships with Federal, State, local, and regional authorities in 
the NCR.'' While that doesn't sound terribly clear, the intent of the 
Members of Congress who created this office is unified--we expect this 
office to help the region identify, plan, and prepare for, and respond 
to potential homeland security incidents and to provide a coordinating 
entity within DHS for that effort. To date much has been done but there 
is still much more to do.
    The NCR Office was intended to be a model of regional cooperation 
and I believe that the Senior Policy Group (SPG) has fostered a strong 
relationship among the local and state governments. However, the lack 
of a strategic plan guiding the day-to-day efforts and long-term 
planning of the ONCRC is a glaring shortcoming. As I have told the 
Office since 2003, the first step is for you to ``define where you are 
going so you know what the next step will be.''
    I feel the lack of a plan and inadequate funding from the 
Department and the Congress have left the Office with inadequate 
staffing levels or authority within the Department. Each year I work to 
increase the staffing of the Office but we have not been successful. 
Fortunately this year the President's budget request includes funds to 
hire one additional person and I hope this can be a sign of things to 
come. We, in the Congress, have to help the ONCRC gain the resources 
necessary to get the job done and I pledge to you to continue in that 
effort.
    It is imperative not only for this region's security but also as a 
model to the rest of the Nation. The NCR has been pointed to by the 
Department as the type of entity that should be mirrored in 
administering the Urban Area Security Initiative (UASI) grants in 2006. 
Essentially, we are the only UASI area that has followed the regional 
model in the past and others must now learn from our experience.
    I look forward to hearing from our witnesses about the progress of 
the Office and also to working with the Members of this Committee to 
continue to improve the region's and the nation's homeland security.

    Senator Warner. Mr. Chairman, I had a chance when the DHS 
bill was on the floor to put in the provisions establishing the 
Office of the National Capital Region, and I would like to 
first inquire of Mr. Lockwood. I see there is a $1 million 
increase for the staff. That is on top of what is the base sum 
today in last year's budget.
    Mr. Lockwood. The current budget calls for five people in 
the office, and the total budget to pay for staff is $892,000.
    Senator Warner. So the million then is practically a 
doubling? You got another million? Is that it?
    Mr. Lockwood. That would be correct, sir.
    Senator Warner. That is pretty good. Now, how did you lobby 
that through? [Laughter.]
    Mr. Lockwood. By working a strategic planning process that 
showed the value.
    Senator Warner. Well, then, I am not trying to be critical. 
I am very pleased, because having had a hand in establishing 
this office, I just want each of the witnesses to describe how 
effective it is going and whether or not we here in Congress 
could give you assistance. The budget is getting more 
satisfactory. How many people do you have working now on the 
current budget you have?
    Mr. Lockwood. Currently, we have three onboard. We have a 
few detailees, and with the half-year funding, we will be 
hiring two more.
    Senator Warner. I see. Well, that is very helpful.
    Then I would ask Mr. Crouch, from the Commonwealth of 
Virginia, how effective do you feel this arrangement has been 
thus far? And does it need any improvements, statutorily or 
otherwise?
    Mr. Crouch. Your last question first, Senator Warner, I am 
not aware of any statutory change that is needed at the present 
time. My impression, as you are aware, Senator, I joined 
Governor Kaine's administration in this capacity following 
George Foresman.
    Senator Warner. George Foresman served with great 
distinction, and we know that, all of us.
    Mr. Crouch. Yes, sir. My view from my observations over the 
past 2\1/2\ months in this regard is that it is working very 
effectively. There is a great deal of communication between the 
two States and the District, with Mr. Lockwood's office. Mr. 
Lockwood's office has been extremely responsive to--speaking 
for Virginia. I cannot speak for Maryland or the District, but 
to a variety of activities and events that we have been 
participating in regarding preparedness and, again, in the all-
hazards approach, and I would say in that regard that the 
office has not limited its focus on the National Capital Region 
alone, but also viewed the rest of Virginia as an extension of 
that, participating in our recent pandemic summit in Richmond 
as well as working with us as we continue to develop our 
Intelligence Fusion Center at Virginia State Police 
Headquarters in Richmond. So I am looking forward to our 
continued relationship and believe that the concept is a sound 
one.
    As we discussed earlier in testimony, the National Capital 
Region presents challenges that may well be unique in the 
Nation in terms of, one, we are the seat of the Nation's 
Government, but also we have two State jurisdictions as well as 
the District of Columbia, multiple local jurisdictions in 
Northern Virginia and in the Maryland suburbs. And if we can 
get it right here--and we have a duty and obligation to get it 
right here--then certainly folks elsewhere in the Nation can 
get it right as well.
    Senator Warner. Well, it is imperative. This is the 
Nation's capital. Putting aside all politics and everything 
else, our three constituencies--Virginia, Maryland, and the 
District of Columbia--have to frequently act as a greater 
metropolitan area serving the Nation's capital. So this is why 
we put this together, and I judge your report to be 
satisfactory.
    I would like to have the Maryland perspective, Mr. 
Schrader.
    Mr. Schrader. Yes, Senator. We are very pleased with the 
working relationship. I know Tom very well. He was actually on 
Governor Ehrlich's staff when he was still in the Congress, and 
I had the privilege of Tom being my deputy in Governor 
Ehrlich's office before he came to the National Capital Region. 
So he is very well aware of the imperatives at the State level. 
His leadership on driving the development of the strategy was 
very important. He basically decided well over a year and a 
half ago that we were going to get this done, and it was his 
dogged determinedness that we were going to get it done. And we 
are continuing to work in a collaborative manner with him.
    Clearly, the States and the District of Columbia have a 
responsibility with driving the preparedness efforts within our 
jurisdictions in collaboration with the NCR, and so we have a 
major responsibility for facilitating and making sure that 
effort is successful. And Tom, with very limited staff, we 
believe has--or I believe has done an excellent job of 
facilitation.
    Senator Warner. He has achieved something that many would 
be envious of, doubling his budget. [Laughter.]
    However, we are aware that there is still work on that 
front to sustain it.
    Mr. Schrader. Yes, sir.
    Senator Warner. Mr. Reiskin.
    Mr. Reiskin. Thank you, Senator Warner. I would echo the 
sentiments of my colleagues. I would add also that here in the 
District in particular, but in the region, because of the 
significant Federal presence, what's the most challenging thing 
for us to deal with is coordination with the Federal 
Government. It is not coordination across State lines. It is 
coordination with the various Federal agencies.
    What we look to from Mr. Lockwood's office is coordination 
across the Department of Homeland Security, across the 
Executive Branch, and then across the entire Federal 
Government. And that is something that is a pretty awesome task 
for five people to do. So I think that increased staffing is 
probably well warranted. The examples that the Chairman and the 
Ranking Member gave in their opening statements about the 
airspace incursion and other coordination issues, the airspace 
incursion was the FAA, it was the Department of Defense, it was 
the U.S. Capitol Police. So this is spanning many agencies and 
two branches of government, and it is very difficult for us at 
the State and local level to coordinate independently with all 
those different entities, and that is great value that the 
Office of National Capital Region Coordination has brought to 
us here in the District and the region.
    Senator Warner. With the Chairman's indulgence, I would 
like to have one more question.
    Senator Voinovich. Certainly.
    Senator Warner. All of us remember where we were on 
September 11, and I was here with my colleagues in the Senate, 
and later that afternoon I decided that I would go over to the 
Department of Defense, where I spent 5 years of my life working 
there--I will never forget it--and joined the Secretary of 
Defense and others, went out to the crash site on that facade 
of the building that was struck, and witnessed just the 
magnificent performance of all levels of fire, police, 
security, Red Cross, just coming together to work. And being an 
old communicator in the military, I have always been interested 
in communications, and I would like to know--and I have 
followed this through these ensuing years. Do we now have a 
network of communication between our fire and our police and 
other rescue workers in this National Capital Region that meets 
the criteria that you presumably have settled among yourselves? 
And are the recipients of the funds, individual police and fire 
and rescue services, satisfied and join you in your opinion as 
to what the situation is?
    Now, who would like to lead off? Why don't you talk, Mr. 
Lockwood, and then I will get to the other three quickly.
    Mr. Lockwood. Sure. Just to create the framework for 
coordination between the multiple jurisdictions within the NCR, 
the multiple jurisdictions, we were able to bring a number of 
the CIOs together to look at how they are investing within 
their State enterprise or local enterprises and start 
integrating. We used some seed money from DHS, some monies or 
resources that were available through the local tax base, to 
start coordinating the actual networks themselves, then to 
integrate in the operation, the operators, the migration of 
databases, the maturation----
    Senator Warner. My time is going to run out. I just simply 
want to know: Do they have in their hands the equipment today 
in the fire and rescue and police and other services to handle 
a catastrophe if it hit this afternoon?
    Mr. Lockwood. They are better today than they were on 
September 11. We still have a long way to go.
    Senator Warner. That is not too good after all these years, 
I have to tell you, gents.
    Mr. Reiskin.
    Mr. Reiskin. I would say in terms of voice 
interoperability, we are fairly interoperable between police, 
fire, emergency medical, and between the different 
jurisdictions. We are better than we were in 2001. We have, 
additionally, purchased and deployed at the suggestion of the 
responders a regional radio cache that we have put into use and 
will put into use during disasters that adds an additional 
1,250 radios that are fully interoperable across all levels.
    Senator Warner. Wait a minute. Where are we? What is 
existing today? If it happened this afternoon, what have you 
got in hand today?
    Mr. Reiskin. Well, all of the responders have radios that 
are largely interoperable with each other. We also have these 
caches that exist today that we would deploy. We have a 
protocol for deployment. We have a protocol for implementation. 
We would kick in that protocol and get those additional 1,250 
radios out to folks so that we could communicate across the 
entire region.
    Senator Warner. I am having a tough time digging through 
this testimony to figure out where we are. Give it a shot, Mr. 
Crouch.
    Mr. Crouch. Yes, sir, Senator. I think what Mr. Reiskin is 
trying to say is that we have made great progress, that by and 
large our local fire/emergency responders throughout the region 
do have communications interoperability capability today that 
they did not----
    Senator Warner. It is the ``by and large'' that worries me. 
I tell you what. I will let you gentlemen put this in for the 
record. But anything, Mr. Schrader, you want to add to this?
    Mr. Schrader. Nothing additional, sir.
    Senator Warner. Just tell me what is in place today, and if 
it does not meet your objectives, what is the timeline which 
you need to get the objectives? And do you need further funding 
specifically directed by the Congress or Homeland Security or 
wherever the deep pockets are to bring you up to speed? 
Because, gentlemen, if another crisis hits in this community 
and we are all running around like we were on the afternoon of 
September 11, the people of this community should chuck us all 
out.
    Senator Voinovich. Thank you, Senator. The question you 
asked was going to be the first question I asked, and while you 
are here, I think it is real important that I have tried this 
last time around to get more money for the EMPG grants, and I 
would like you to let Senator Warner know how important that 
is, because my colleagues do not seem to understand that if you 
do not have the resources at the State level to have the people 
that can get the job done, you cannot get it done.
    Would somebody comment before we go to vote?
    Mr. Schrader. Senator, it is vital for the local 
jurisdictions live and die on EMPG grants. Without that money, 
we cannot keep these programs going, and a lot of the local----
    Senator Voinovich. What are EMPG grants?
    Mr. Schrader. The Emergency Management Program Grant funds. 
They are absolutely essential, and they are matching grants, 
and our local jurisdictions, which is where our programs live 
and die, need those dollars. There is no question. We could not 
operate without them, and it is a very difficult process.
    Senator Voinovich. The budget right now is absolutely 
inadequate to get the job done?
    Mr. Schrader. Right.
    Senator Warner. Then we need a line item to change it.
    Senator Voinovich. Well, why don't the two of us work on it 
and put it in the budget.
    Senator Warner. It is not that I am trying to get added 
protection for Members of Congress. But we do have the 
responsibility here in the Nation's capital of literally 
millions of tourists at any time of day or week. We do have the 
three branches of the government collocated here, with the 
heads of the respective branches collocated here, and the 
functioning of our government is highly dependent on the 
interoperability of the three branches of government in a time 
of crisis. That in turn is dependent on the infrastructure that 
can react to a crisis and give us the means by which to 
continue to function as a government.
    I guess we do not have it in place this day. Is that about 
right? Maybe a little voice communication?
    Mr. Crouch. I think we have extensive voice 
interoperability.
    Senator Warner. You do? Then I do not want to underestimate 
it.
    Mr. Crouch. We will get documentation of that for you.
    Senator Warner. Well, what I would like to do is have a 
document signed by all of you saying this is our consensus of 
where we are today, where we need to go, and what are the 
mechanics, money or otherwise, to get there.
    Mr. Crouch. Yes, sir.
    Senator Voinovich. Senator, I am also going to ask Mr. 
Jenkins what--you can answer. He is from the GAO. He is looking 
at this. What is your answer to this question, Mr. Jenkins?
    Mr. Jenkins. You mean the interoperability?
    Senator Voinovich. Yes, sir.
    Senator Warner. Today.
    Mr. Jenkins. I would agree with what they said; that is, 
there is partial interoperability but not complete, and they 
have asked for money in their grant to buy radios for Prince 
George's County, for example, who is not totally compatible 
with everybody around here. So if they had to bring in Prince 
George's County, you probably would have some communication 
problems.
    Mr. Crouch. If I may, Mr. Chairman, respond also to your 
question regarding the Emergency Management Preparedness 
Grants, I think it is significant that in fiscal year 2006 
there was $183 million appropriated for that. The National 
Emergency Management Association has asked for $270 million, 
and the President's budget currently has $170 million in there. 
So we certainly appreciate the Chairman's support.
    Senator Voinovich. We were able to get $10 million last 
year, but maybe with Senator Warner's help and a few others, we 
can get additional funds to take care of your situation.
    Mr. Crouch. Yes, sir.
    Senator Warner. You know, it is amazing, Mr. Chairman. The 
budget which I have under my jurisdiction, as Chairman of the 
Armed Services Committee. The Department of Defense's budget is 
nearly half a trillion dollars. And the Pentagon is part of the 
network and could again be the target. We just simply--we will 
get to the bottom of it. Thank you very much. But give us that 
analysis as quickly as you can.
    Senator Voinovich. My problem around this place is that we 
have silos all over, this appropriation, that appropriation. As 
a former mayor and governor, it bothers me to sit back and see 
that the big picture is not being considered. We should 
consider the type of relationships that the DOD and the NCR 
have, and whose programs we fund. We could respond to it in a 
very constructive fashion.
    Let me get back to the interoperability. When I was 
governor, I got chewed out by a lot of people because we 
appropriated $270 million to go to 800 megahertz radio system. 
I would really like you today to tell the Subcommittee where 
you are with the voice and where you are with data 
communication? How much have you spent on it so far in terms of 
additional dollars? How much money do you need in terms of the 
dollars that are being allocated to the region and then to your 
respective States? Which portion of those dollars have you 
allocated to support this communications set-up?
    Mr. Lockwood, as I mentioned in my opening statement, 
Hurricane Katrina taught us the importance of a clear chain of 
command, and in the event of a natural catastrophe or major 
terrorist attack in the District or other regions in the NCR, 
is there any single official in charge who would have command 
authority over all of the resources in the region at the 
Federal, State, and local level? And if not, should there be?
    Mr. Lockwood. If there is an event, whether it is in the 
National Capital Region or any other region of the United 
States, the National Response Plan and the National Incident 
Management System will be utilized. If it takes place in the 
District, the District is going to be accountable. Our region 
will be supporting the D.C. Government. If national resources 
are required, they will be provided through an emergency 
management structure that will support our local governments.
    The coordination we are trying to do on a daily basis with 
the Federal family in the NCR is where those activities occur 
in the first few hours so that we do not, through protective 
measures and through protocols, mis-position ourselves. That is 
an ongoing challenge we work with.
    Senator Voinovich. I am going to recess the hearing to go 
vote. I would ask Senator Akaka when he comes back to take over 
and continue with his questions.
    [Recess.]
    Senator Akaka [presiding]. The hearing will be in order. I 
want to thank you again for your testimony. This question is 
for any member of the NCR. Your joint testimony stated that the 
NCR web portal allows you to share regionally relevant data. 
Can you tell me what ``regionally relevant'' means? 
Specifically, does it include information on how each 
individual jurisdiction spends its own local and homeland 
security funds? Mr. Reiskin.
    Mr. Reiskin. I can try to respond. First, this portal was 
established as a workspace to give all the stakeholders or the 
relevant stakeholders in a region visibility into various 
programs, not just spending, but other aspects as well. With 
regard to spending, the data that is there now is the regional 
homeland security dollars, the UASI grants from all grant 
years. It also has some of the State homeland security fund 
data. It does not have local fund data from any of the 
government sources.
    As Mr. Schrader pointed out, the people who are responsible 
for the State and local homeland security spending in the 
respective jurisdictions are the same people, the people here, 
and the local level folks that we work with, the chief 
administrative officers. They are the same people who are doing 
the regional planning. So whereas, we don't have a single place 
where we could go where you could see how much my police 
department is spending out of local funds towards 
preparedness--it is a significant amount--I am at the table and 
making the State decisions and making the regional decisions, 
and we are coordinating and leveraging.
    As an example, as we have developed the radio network that 
we were just talking about, and built up the radio 
interoperability, we have invested at different levels in 
different jurisdictions based on where they were, what 
investments had already been made. Many local jurisdictions had 
gotten themselves the 800 megahertz. In some circumstances we 
used regional funds to fill gaps in order to get everybody up 
to the same level.
    So we do make all decisions very much mindful of where the 
regional, State, and local spending investments have been made 
and will be made.
    Senator Akaka. I look upon what you said as representing 
the group of you here.
    Mr. Jenkins, would you care to comment on this issue? Do 
you agree with that definition of regionally relevant 
information?
    Mr. Jenkins. I think our perspective on this is--I know 
that the last time we had a hearing, our position was described 
as a bookkeeping exercise, and I certainly do not agree with 
that. The basic issue here is that UASI is a regional source of 
money, and to be used effectively it has to leverage the money 
that is being spent elsewhere. So that it is an enhancement to 
money that is being spent elsewhere. It is not duplicative and 
it is not supplanting that money, it's not being used to 
displace local funds, and therefore, you do at the very least 
need to know what the money is being spent on, for what 
purpose. I think it is better to know where the dollars are 
coming from and how much you can leverage, but at the very 
least you need to know what the money is being spent on, for 
what purpose, and in what way that UASI can be leveraged? It is 
supposed to complement and leverage these other monies.
    Senator Akaka. To any member of the NCR, in 2005 DHS 
conducted an exercise in New Orleans called Hurricane Pam to 
test Federal, State, and local emergency response capabilities 
at that time. How many similar exercises has the NCR conducted?
    Mr. Lockwood. In the NCR, we do a number of events, 
including State funerals and special events. We look at every 
event in the National Capital Region. As an event, we look at 
the hot washes of the event to see what we did well and what we 
would like to do better. This is in addition to the major 
exercises that are played in the National Capital Region.
    One of the challenges that we have had with the different 
Federal activities and State or local activities, is how do we 
start integrating the lessons learned from the exercises to the 
resource spending or into operations themselves? That has been 
a challenge, and that is part of the focus in the partnership 
with the Military District of Washington, where we are trying 
to coordinate those Federal exercises and activities so we 
don't have multiple exercises overlapping on similar 
objectives. That is a challenge.
    Senator Akaka. Mr. Reiskin, at the July hearing, you 
testified that DHS and the District were working on an improved 
communication protocols for major security incidents in the 
District. Can you please tell us if those protocols have been 
implemented, and if communication between the District and DHS 
has improved? Specifically, can you provide us with an example 
of incident that occurred in the District since last July and 
describe the coordination?
    Mr. Reiskin. We did develop protocols. We developed generic 
protocols, although it did stem from that airspace incursion 
incident, and I can tell you that we have had a number of 
airspace incursions since then, and the protocols have worked 
as drafted. We get notification now through multiple paths, 
including through the Department of Homeland Security, but also 
directly from the FAA. So I believe that issue, which was 
certainly a problem for us, that particular one, has been 
addressed.
    There are other areas of notification that we are still 
working on, frankly, and as I mentioned previously, the 
challenge of Mr. Lockwood's office, I believe, is not just to 
coordinate with the Department of Homeland Security--and our 
coordination with them, I would say, is excellent--but across 
the rest of the Federal Government, including the Legislative 
Branch.
    Mr. Lockwood's office is currently convening a multi-agency 
group including Defense, Health and Human Services, Justice, 
and State and locals in this area to deal with bio-events. We 
solved the airspace incursion and similar events to that. We 
are now moving to bio-events, such as some of the false 
readings of anthrax that we have had at the Pentagon in the 
last years or so.
    So we have made very good progress in terms of airspace and 
some other incidents. In other areas, it is still a work in 
progress.
    Senator Akaka. Mr. Reiskin, September 11 demonstrated the 
challenges of evacuating the District. The Metro stopped 
running. The main bridges and roads through Maryland and 
Virginia were gridlocked, and emergency response personnel 
trying to cross the city just made traffic worse at that time. 
What has the District done to improve evacuation capability 
since September 11?
    Mr. Reiskin. After September 11, we developed an evacuation 
plan and communicated that plan. We did a mailing to households 
in the District. We did that, I think, a couple of times. We 
developed signal timing capacity so that we could essentially 
flip a switch and time all of our outgoing signals to stream 
the traffic outbound on evacuation routes that we labeled. We 
established an intersection control program where we deployed 
people to make sure that the traffic is moving in the downtown 
area to clear people out. We deployed closed circuit television 
cameras all around the District, so that within the 
Transportation Management Center, which we stood up after 
September 11, we can monitor in real time what is happening on 
the streets, and then we can divert or send intersection 
control or other resources accordingly.
    We also--I think we discussed at this hearing last year--
have exercised our plan. We exercised on July 4. It was an 
actual quasi-real exercise where we put the plan into place, 
and although it wasn't during an emergency situation, it did 
provide us some valuable information.
    Last year with our homeland security funds, we funded the 
development of a regional walk-out plan so that we can plan 
for, as practically happened, such on September 11, the 
facilitation of people leaving the District on foot as well as 
and safely in coordination with the people leaving in cars. We 
have purchased emergency generators for our downtown 
intersection signals, so that if we lose power, we don't lose 
the traffic signals. We are also investing in some scenario 
planning that we will exercise to see how different kinds of 
events would impact our evacuation flow. And we brought home 
the message of shelter in place, versus evacuation, tried to do 
that strongly through our educational awareness campaign.
    We have, since Hurricanes Katrina and Rita hit, been 
reevaluating our plan. We're currently in the process of 
updating our evacuation plan. We are looking specifically at 
the issues surrounding people with special needs and people 
without their own vehicles. Our plan did contemplate having 
buses available to move people who don't have the ability to 
move themselves. But what we are doing now, is we are doing a 
little bit finer-grain analysis, looking at census data, 
looking at DMV data, to make sure and update where folks are 
that don't have cars so that we can deploy our buses in the 
right places, and make sure that people in those neighborhoods 
are aware of where they need to go should they be required to 
evacuate.
    We are also looking at expanded rail and water-based modes 
of transportation to enhance. So we have done, I think, a 
significant amount, and we feel fairly confident that we could 
move a significant amount of people out of downtown in a 
relatively short period of time, notwithstanding what you see 
on a normal rush hour when that is not our goal to just get 
people out.
    But I do want to add that we see a scenario whereby we 
would have to evacuate the entire downtown or a large part of 
the District as being a very unlikely scenario, and we continue 
to push the message that in most cases and in most types of 
events, the best course of action, the safest course of action, 
will be to stay where you are.
    Senator Akaka. Mr. Chairman, let me finish by asking Mr. 
Schrader and Mr. Crouch, has Maryland and Virginia been 
involved in evacuation planning?
    Mr. Schrader. Absolutely. Since Katrina, we have actually 
gone back as part of the National Plan Review, and pulled all 
of our States and 26 jurisdictions, together, and are 
developing a detailed evacuation plan for Maryland, which will 
then be coordinated back with the National Capital Region. Of 
course, Montgomery County and Prince George's County are in the 
National Capital Region.
    Our policy is to have--our programs are statewide programs, 
and then we coordinate them with the NCR.
    Senator Akaka. Thank you.
    Mr. Crouch. Yes, Senator. Virginia's efforts are very 
similar to Maryland's in that regard, and they have included 
discussion among all of our jurisdictions. Most recently in the 
National Capital Region there was also a meeting of the chief 
administrative officers of all the counties and cities of the 
Virginia jurisdictions in the National Capital Region with 
their counterparts in outlying counties and cities, to discuss 
the capacity of the outlying counties to anticipate and care 
for a surge of evacuees from the National Capital Region.
    So these efforts are ongoing, and to some extent existed 
before Katrina and Rita, but certainly, have been reexamined 
and strengthened since that time.
    Senator Akaka. Thank you very much for your responses. Mr. 
Chairman.
    Senator Voinovich [presiding]. Thank you, Senator Akaka.
    Mr. Reiskin, sometime ago, we talked about the issue of law 
enforcement agencies, and their communications with each other 
and coordinating their resources in the event of a terrorist 
attack. Are you getting the kind of cooperation that you 
should? Is this part of your strategic plan?
    Mr. Reiskin. Yes. There are actually 35 different law 
enforcement agencies that operate within the District of 
Columbia. So it is somewhat of a challenge, but the major 
agencies, such as the Capitol Police, the Park Police, the 
Secret Service, we work every day with them at the Metropolitan 
Police Department. Just a couple of hours ago we had a 
suspicious package at 15th and E, right by the White House. 
That is something that is jointly managed between the Secret 
Service and the Metropolitan Police Department. We have 
actually deployed Metropolitan Police Department officers into 
the command centers of the Capitol Police and the Secret 
Service on a regular basis, and certainly any time we have an 
event, we have their folks in our command center as well.
    For every major event, and for things as small as the 
National Marathon this past weekend, we jointly develop our 
plans with all of the law enforcement agencies in the District, 
and often in conjunction with those in the region. So I would 
say largely our coordination within the law enforcement 
community is very strong.
    Last year, in addition, we invested some of our UASI funds 
toward the development of a law enforcement data sharing 
network, which was more on the prevention side, perhaps, than 
the response side. This will help significantly in terms of 
information sharing across the region between all of our law 
enforcement agencies.
    Senator Voinovich. So you think that there has been a 
significant improvement from what it was?
    Mr. Reiskin. Absolutely, on a daily basis, I can at least 
say for the major ones. There are some very small law 
enforcement agencies, but I don't think they're really a 
significant issue.
    Senator Voinovich. It is my understanding that if something 
happened in Maryland or Virginia, or the District, Maryland 
would be in charge, or Virginia would be in charge, or the 
District would be in charge. Mr. Reiskin, if an event happened 
in the District you would have the job of accessing all the 
resources. You would be able to access Virginia or Maryland to 
help you to get the job done?
    Mr. Reiskin. That is absolutely correct.
    Senator Voinovich. Mr. Lockwood, where would you fit into 
the picture? Would you be sitting there next to them in the 
chair or would you be in communication with them because of 
your responsibilities?
    Mr. Lockwood. Yes, sir. Typically for most of the event 
planning, I coordinate across different operation centers. I 
coordinate physically with several of my partners. In the event 
of an emergency, I will go to the inter-agency group that is 
trying to coordinate the Federal Government to provide----
    Senator Voinovich. Do you have a command center?
    Mr. Lockwood. Yes, sir. The Inter-Agency Working Group is 
at the Nebraska Avenue Complex under the Operations Division. 
During the event of an emergency, that group, whether the 
emergency is here in the National Capital Region or any other 
place in the United States, it will surge representatives of 
various Federal agencies, including the Legislative Branch, to 
integrate our response to the State and local governments.
    Senator Voinovich. Good. I really want all of you to tell 
me what needs to be done to complete the strategic plan. What 
is the timeline and milestones? I would like it in writing, and 
sent to Senator Akaka, as well. I want our staff to be able to 
monitor your progress. I would also like a full picture on 
where you are in terms of communication. How much money have 
you put in, how much additional money would you need to take it 
to where it should be. In my State, I put 250 million into it, 
the next governors put additional money into it. We are in 
pretty good shape relative to the rest of the country.
    I would also like to know your EMPG needs. I would like to 
share that with Senator Warner and my other colleagues. 
Maryland and Virginia should make sure your two Senators 
understand how important EMPG is. I am going to try and get 
additional EMPG funds because I know how important it is to 
you.
    Mr. Jenkins, you have had a chance to listen to this 
testimony here today. Are there any thoughts that you have, 
comments about some of the answers of some of the witnesses, 
and wrap it up from your point of view at GAO?
    Mr. Jenkins. I would say it is certainly our view that this 
group sitting at this table and the region as a whole has 
definitely established a cooperative working relationship that 
is very important for being able to accomplish what they need 
to accomplish.
    I think our concern still remains--and this is the thought 
I would like to leave--is that the documents that we saw are 
task and project oriented, and what we were having trouble 
looking at them and understanding is task and project oriented 
to what end? What is it that you want to accomplish? And it 
comes back, as I said, from my perspective, to the risk and 
capabilities, what do you want to get?
    When you look at the things, for example, it says 
``immediate'' as the sort of measure, and immediate has to have 
an operational measure. In other words, what do you mean by 
``immediate'' in terms of being able to evacuate people? So it 
really needs, from our perspective, to have--it should be a 
road map, and that road map should say when I get there, what 
is it that I want to be able to accomplish, and what is it that 
I want to be able to do, and how can I best do that with the 
resources I have? Because you will never have all the resources 
that you need, so you inevitably are going to have to make 
tradeoffs, and then on what basis are you making those 
tradeoffs?
    And we would like to see that in the plan because that is 
how you can then understand where you are trying to go and how 
you are going to get there. Right now these documents have a 
lot of very useful information in them, but it does not really 
tell you very much about the destination.
    Senator Voinovich. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Reiskin, I know that the District uses text messages 
and e-mails to alert residents to emergency conditions in the 
District. How many of the one million people who live and work 
in the District can be contacted through the current emergency 
alert system?
    Mr. Reiskin. I can't tell you how many can be. Right now of 
the roughly 580,000 residents in the District, we have about, I 
believe, 18,000 who have registered for the text alert system, 
and that really is one of four means that we have to reach 
people during an emergency, but it is a significant one. One of 
the goals that I have tasked our emergency manager with is a 
significant increase in that number, getting up towards over 
100,000 people, working also with some local private sector 
folks to help us on the outreach efforts towards that goal, 
because the real-time awareness of an emergent issue is 
something that we believe is very critical, and we think that 
we need to take it to a much higher level.
    We have, in the region, invested in this text alerting 
capability across the entire National Capital Region, and I 
don't have the numbers, but we can certainly get you the 
numbers for across the whole region how many people we have 
signed up to date, and both in the District and the National 
Capital Region we're working to get those numbers up.
    Senator Akaka. Besides the text messages and e-mails to 
alert the people, do you believe that the District needs a 
siren system, and if so, are there plans to do that?
    Mr. Reiskin. We are currently piloting--again, this is a 
regional project--we're piloting a siren project that the 
District, frankly, has gone back and forth quite a bit on the 
siren issue. I think that general consensus has been that 
sirens are not very helpful in an urban environment.
    Our primary means of communication during an emergency, we 
have the text alert system, we have the emergency alert system, 
which is akin to the old emergency broadcast system, where we 
can take over the airwaves, radio and TV, to get messages out. 
We have, of course, our emergency portal on our website, and we 
have a reverse 911 telephone system, where we can call out to 
the entire District or certain neighborhoods. We think that 
those four components give us pretty good reach in terms of 
getting messages to people on an urgent basis.
    We are, however, as part of the region, taking part in the 
pilot of the siren system. We are also looking--I mentioned 
that we are putting emergency generators in place, or will have 
the ability to do so at our downtown intersections. The 
electronics that are associated with a modern traffic signal 
system actually would give us the capability to send messages 
out in a very localized way, not just sirens, but actual voice 
messages. So we're also looking at that system as a way to deal 
with the outdoor warning system.
    Senator Akaka. Mr. Chairman, let me ask Mr. Lockwood.
    There are more than 150,000 Federal employees who work in 
the District, a portion of which are critical personnel, who 
support Federal Continuity of Operations, and Continuity of 
Government Response Plans that are activated during an incident 
in the NCR. In the event of a major disaster within the NCR, 
there is no doubt that considerable confusion will exist, 
including traffic jams, power outages, and major disruptions of 
public transportation.
    I am concerned that Federal employees with COOP and COG 
responsibilities will be immobilized in this confusion and 
unable to execute COOP and COG plans in a timely fashion. My 
question to you is, what has been done to coordinate Federal 
COOP and COG plans with the District emergency evacuation 
plans?
    Mr. Lockwood. In our region, we have over 300,000 Federal 
employees. A significant number of employees are not COOP/COG, 
but we have critical personnel that need to get to where they 
need to go to support continuity of government and continuity 
of operations. For the coordination of this, one of the key 
efforts that we have been looking at is how do we credential 
people, pre-identify people so that we don't walk into where we 
were on September 11, 12, and 13, when people couldn't get to 
where they needed to be. This is the interoperable identity 
management piece that we have been looking at for leveraging 
the Federal framework of FIPS 201. This region is probably the 
first region in the Nation that is looking at how to coordinate 
first responders and critical support people to cross through 
lines.
    Additionally, from the Federal side, we have programs under 
way to look at how we rally people and get them to where they 
need to be. They will be integrated into the testing scheduled 
that occurs every year. So those are actively engaged. But one 
of the key things that the Federal Government, State and 
locals, the identity management piece, where we are integrated 
is really a priority for the Federal Government to complete.
    Senator Akaka. Thank you. Mr. Reiskin.
    Mr. Reiskin. If I could add one thing that Mr. Lockwood 
didn't mention, but that he's really been instrumental in 
doing, is integrating the NCR State and local governments into 
the Federal COOP/COG exercise process. So while we're fairly 
confident right now with our ability to move people out of the 
downtown in the event of an emergency, integrating us into 
their exercise process will give us some better visibility into 
what kind of impacts there are. As Mr. Lockwood said, it's not 
all 150,000 employees who need to get out, but we do need to 
make sure that the ones who do need to move, can move, and by 
integrating us into that exercise, I think that will give us 
the visibility to determine whether we are there yet or what we 
need to do to fix it if we're not.
    Mr. Lockwood. A key piece of this was in previous cycles, 
local governments, State governments, were not represented 
within these discussions. They were simulated. It think it's 
important, and I believe that the Secretary thinks it's vitally 
important, that we include our State and local partners in this 
discussion. Furthermore, as we look at these exercises and 
events, if there is something that's going to force a COOP 
action with the National Capital Region, there also needs to be 
a way to have an integrated Federal response. That integrated 
Federal response does require joint operations space, and we 
are actively looking at that with regard to our exercise 
strategies as well. For each exercise we want to make sure that 
the mix of Federal, State, and locals have an understanding of 
where they need to go in the event of an emergency, to 
integrate the response to support local government.
    Senator Akaka. Thank you for your responses. As you can 
tell, the Chairman and I are vitally interested in knowing what 
you've done thus far, and look forward to those kinds of 
documents.
    I would like, Mr. Chairman, to close by associating myself 
with the comments you made about the EMPG grant funding while I 
was gone. I understand you spoke about that for about 5 
minutes. Rest assured, we are committed to increasing EMPG 
funds.
    Thank you very much, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Akaka.
    Again, for the record, I would like to have the written 
plan, and, Mr. Jenkins, I am going to ask you to look at it. 
Mr. Lockwood, I expect that Senator Akaka, and I will spend 
some time with you as we have along with the plan.
    Senator Akaka, I think it might be very worthwhile to 
schedule a hearing in September. If the plan is to be complete 
in August, you can come back in September, and brag about what 
you have done.
    This is a technical question for Mr. Jenkins. Is it 
necessary to include the Katrina after action report, the 
enhancement plan, and EMAP into the strategic plan?
    Mr. Jenkins. Well, I think certainly with regard to--the 
real issue out of Katrina is not a ``normal major emergency, 
it's a catastrophe, a catastrophic event.'' That is defined by 
DHS as basically being a event that almost immediately 
overwhelms the capacity of State and local governments to 
respond. In other words, it turns the normal process in which 
State and local governments are the first responders and they 
ask for help further up the line, it turns that upside down 
essentially on its head, where the Federal Government then 
needs to be more proactive. And so I think that is clearly 
something that needs to be considered, is what happens to 
normal planning if there is a catastrophic event that really 
overwhelms State and local responders in the region? So I think 
it's important to incorporate that into it. I think that's very 
important.
    Senator Voinovich. If something would happen in the region, 
it would be a way out of anything that you could----
    Mr. Jenkins. Way out of anything, and it would affect--as 
it did in Katrina--affects communications, affects 
transportation, affects the ability of the first responders to 
get to where they need to go, or be able to do what they need 
to do because their equipment is incapacitated. And so Katrina 
really is more of an issue of a catastrophic event. As horrible 
as the events of September 11 were in both New York and here in 
Washington, they were essentially local, non-catastrophic 
events. That is, they were events that were largely managed by 
State and local first responders who had the equipment and the 
ability to respond. So they were very different from Katrina in 
that regard, both in terms of--Katrina was much larger in terms 
of geographic scope and the degree and scope of the 
destruction, that is, the variety of things that it destroyed 
and its ability, therefore, for State and locals to respond.
    So I think that getting in and thinking about what would 
happen if there were a catastrophe--and that's where you need 
to think about the risk. The risk is not very high here for an 
earthquake, and so you need to think about what the risks are 
that you face. Think about the capacity that you need, and what 
would happen under different sets of assumptions, and what does 
that mean in terms of the capacity that I have and what I need 
and what people's roles and responsibilities are.
    So it is important, I think, particularly for the Katrina 
reports, for people to look at what the lessons are learned 
from Katrina, and what they mean for emergency preparedness in 
this region, particularly a region as high a risk as this 
region is for something pretty horrible to happen.
    So those are, I think, the most important things. And as I 
said, the other thing is really getting at the risk and 
therefore the capabilities that you need, whatever those risks 
are and then the capabilities that you need, and where are you 
with regard to those capabilities and where do you need to go 
in what priority order.
    Senator Voinovich. Thank you.
    Mr. Lockwood, who oversees the evacuation of Federal 
buildings? We have several evacuation plans for our offices. We 
have a lot of other Federal agencies around here. Who is 
responsible to ensure that Federal agencies are prepared to 
evacuate and ensure that everybody knows where they are 
supposed to go?
    Mr. Lockwood. Through the Joint Federal Committee, we try 
to make sure people are aware of some of the planning 
activities. One of the key planning activities has been 
protective measures. In the event of an emergency, a fire, in 
adjacent buildings, even if they are different branches of 
government within the Executive Branch, we have to sort out the 
planning, the immediate planning around those buildings. Each 
building has an occupancy plan. What we are doing now is 
looking at the clusters of Federal buildings within the 
National Capital Region. Essentially, there are 13 major 
clusters. We are looking in detail at one cluster right now to 
say, when was the last time the occupancy plans were updated? 
Have they been coordinated with their neighbors? Have they 
sorted through, if it's inclement weather or the different 
threat types that you might be working.
    We're doing a detailed piece on one of the clusters right 
now, and as we understand the conflicts and the deconflicts 
that we need to do, we're going to then walk through the other 
clusters.
    Senator Voinovich. You are in charge of it? Is there 
someone in the Administration that says to Mike Leavitt or to 
some of the other secretaries of agencies, ``Have you guys 
recently checked to see whether or not your folks know what 
they're supposed to do and where they're supposed to go?''
    Mr. Lockwood. The guidance originally is through OPM and 
GSA, and that would be the driving guidance right now. The 
executing arm of this is the Federal Protective Service across 
the Executive Branch. One of the pieces of this office, is the 
coordination across the groups. Again, it's coordination. I do 
not have authority over Secretary Leavitt or the other----
    Senator Voinovich. But the fact is, if I want to find out 
when was the last time that they did a drill of some sort, who 
would have that information?
    Mr. Lockwood. I would have to work with FPS to understand 
that, and I could get back to you.
    Senator Voinovich. OK. I would just be interested in it. It 
is one of those things, how often is anybody thinking about it?
    Mr. Lockwood. Again, this goes back into the criteria of 
these occupancy plans and updating those plans.
    Senator Voinovich. This has been a good hearing. I think 
you know how interested we are. Our goal is to have the plan by 
August.
    We thank you very much. This meeting is adjourned.
    [Whereupon, at 4:37 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7755.001

[GRAPHIC] [TIFF OMITTED] T7755.002

[GRAPHIC] [TIFF OMITTED] T7755.003

[GRAPHIC] [TIFF OMITTED] T7755.004

[GRAPHIC] [TIFF OMITTED] T7755.005

[GRAPHIC] [TIFF OMITTED] T7755.006

[GRAPHIC] [TIFF OMITTED] T7755.007

[GRAPHIC] [TIFF OMITTED] T7755.008

[GRAPHIC] [TIFF OMITTED] T7755.009

[GRAPHIC] [TIFF OMITTED] T7755.010

[GRAPHIC] [TIFF OMITTED] T7755.011

[GRAPHIC] [TIFF OMITTED] T7755.012

[GRAPHIC] [TIFF OMITTED] T7755.013

[GRAPHIC] [TIFF OMITTED] T7755.014

[GRAPHIC] [TIFF OMITTED] T7755.015

[GRAPHIC] [TIFF OMITTED] T7755.016

[GRAPHIC] [TIFF OMITTED] T7755.017

[GRAPHIC] [TIFF OMITTED] T7755.018

[GRAPHIC] [TIFF OMITTED] T7755.019

[GRAPHIC] [TIFF OMITTED] T7755.020

[GRAPHIC] [TIFF OMITTED] T7755.021

[GRAPHIC] [TIFF OMITTED] T7755.022

[GRAPHIC] [TIFF OMITTED] T7755.023

[GRAPHIC] [TIFF OMITTED] T7755.024

[GRAPHIC] [TIFF OMITTED] T7755.025

[GRAPHIC] [TIFF OMITTED] T7755.026

[GRAPHIC] [TIFF OMITTED] T7755.027

[GRAPHIC] [TIFF OMITTED] T7755.028

[GRAPHIC] [TIFF OMITTED] T7755.029

[GRAPHIC] [TIFF OMITTED] T7755.030

[GRAPHIC] [TIFF OMITTED] T7755.031

[GRAPHIC] [TIFF OMITTED] T7755.032

[GRAPHIC] [TIFF OMITTED] T7755.033

[GRAPHIC] [TIFF OMITTED] T7755.034

[GRAPHIC] [TIFF OMITTED] T7755.035

[GRAPHIC] [TIFF OMITTED] T7755.036

[GRAPHIC] [TIFF OMITTED] T7755.037

[GRAPHIC] [TIFF OMITTED] T7755.038

[GRAPHIC] [TIFF OMITTED] T7755.039

[GRAPHIC] [TIFF OMITTED] T7755.040

[GRAPHIC] [TIFF OMITTED] T7755.041

[GRAPHIC] [TIFF OMITTED] T7755.042

[GRAPHIC] [TIFF OMITTED] T7755.043

[GRAPHIC] [TIFF OMITTED] T7755.044

[GRAPHIC] [TIFF OMITTED] T7755.045

[GRAPHIC] [TIFF OMITTED] T7755.046

[GRAPHIC] [TIFF OMITTED] T7755.047

[GRAPHIC] [TIFF OMITTED] T7755.048

[GRAPHIC] [TIFF OMITTED] T7755.049

[GRAPHIC] [TIFF OMITTED] T7755.050

[GRAPHIC] [TIFF OMITTED] T7755.051

[GRAPHIC] [TIFF OMITTED] T7755.052

[GRAPHIC] [TIFF OMITTED] T7755.053

[GRAPHIC] [TIFF OMITTED] T7755.054

[GRAPHIC] [TIFF OMITTED] T7755.055

[GRAPHIC] [TIFF OMITTED] T7755.056

[GRAPHIC] [TIFF OMITTED] T7755.057

[GRAPHIC] [TIFF OMITTED] T7755.058

[GRAPHIC] [TIFF OMITTED] T7755.059

[GRAPHIC] [TIFF OMITTED] T7755.060

[GRAPHIC] [TIFF OMITTED] T7755.061

[GRAPHIC] [TIFF OMITTED] T7755.062

[GRAPHIC] [TIFF OMITTED] T7755.063

[GRAPHIC] [TIFF OMITTED] T7755.064

[GRAPHIC] [TIFF OMITTED] T7755.065

[GRAPHIC] [TIFF OMITTED] T7755.066

[GRAPHIC] [TIFF OMITTED] T7755.067

[GRAPHIC] [TIFF OMITTED] T7755.068

[GRAPHIC] [TIFF OMITTED] T7755.069

[GRAPHIC] [TIFF OMITTED] T7755.070

[GRAPHIC] [TIFF OMITTED] T7755.071

[GRAPHIC] [TIFF OMITTED] T7755.072

[GRAPHIC] [TIFF OMITTED] T7755.073

[GRAPHIC] [TIFF OMITTED] T7755.074

[GRAPHIC] [TIFF OMITTED] T7755.075

                                 <all>

</pre></body></html>
